E-Mail Address:

C@OCKLE

2311 Douglas Street L ] B rie £
Omaha, Nebraska 68102-1214 ega Te “ons contact@cocklelegalbriefs.com

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.
JOSEPH COLONE,
Petitioner,

v.
THE SUPERIOR COURT OF THE STATE OF
CALIFORNIA, FOR THE COUNTY OF SAN FRANCISCO,
Respondent.

GITHUB, INC.,
Real Party in Interest.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(b), | certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 7037 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 13th day of April, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

Kearse. 9. Llaoo? Ondine b bela

Affiant 40887

    
  

& GENERAL NOTARY-State of Hebraska
a RENEE J. GOSS
eset seo My Comm. Exp. September 5, 2023

 

Notary Public
